OFFICE OF INSPECTOR GENERAL

              Audit Report

Inspection of the Railroad Retirement Board’s
      Representative Payee Monitoring


               Report No. 12-07
                July 27, 2012




RAILROAD RETIREMENT BOARD
                                EXECUTIVE SUMMARY

Background

The Office of Inspector General (OIG) conducted an inspection of the Railroad
Retirement Board’s (RRB) representative payee monitoring. It is the policy of the RRB
that every adult has the right to manage his payments unless found to be incompetent.
The Railroad Retirement Act authorizes the RRB to select and pay benefits to
individuals or organizations on behalf of annuitants deemed incapable of managing their
own financial affairs. These authorized individuals or organizations are known as
representative payees (rep payees). Rep payees are charged with managing RRB
benefits for the welfare of the annuitants. RRB procedures provide that rep payees are
to be monitored to determine if the annuitants’ rights are being protected.

Objectives

The objectives of our inspection were to determine if the RRB’s monitoring efforts over
rep payees ensured that benefits paid to rep payees were used for the needs of the
annuitants, and to identify opportunities to improve the effectiveness and efficiency of
RRB’s rep payee monitoring.

Findings

Our inspection determined that the RRB’s rep payee monitoring program did not
adequately ensure that benefits paid to rep payees were used for the needs of the
annuitants. The inspection disclosed the following weaknesses that needed to be
strengthened:

   •   Controls were not sufficient to ensure the protection of annuitants’ rights;
   •   Self-reporting and the RRB’s selection methodology increased the risk of abuse,
       neglect, or misuse of funds;
   •   “High-risk” rep payees were not readily identifiable;
   •   Face-to-face interviews were under-utilized in rep payee monitoring;
   •   System reporting lacked data for management decision making;
   •   Policies and procedures were incomplete; and
   •   RRB did not check rep payees for criminal and/or misdemeanor offenses.




                                             i
We also identified opportunities to improve the effectiveness and efficiency of RRB’s
rep payee monitoring in the following areas:

   •   Timeliness of monitoring activities needed improvement;
   •   “Parent-for-child” monitoring did not require an accounting of benefits;
   •   Documentation for some rep payees was incomplete; and
   •   Controls to ensure proper coding of rep payees were insufficient.

Recommendations

To address the identified weaknesses, we recommended that agency management:
   •   re-communicate the purpose of rep payee monitoring to applicable employees;
   •   perform a risk analysis for the rep payee program;
   •   re-evaluate existing controls and implement additional controls to ensure that the
       rights of the annuitants are protected;
   •   request and review supporting documentation in order to properly analyze
       rep payee disclosures;
   •   re-evaluate the selection methodology for determining which cases will be
       monitored in any given year;
   •   implement additional controls to improve the process for identifying and
       monitoring “high-risk” rep payees;
   •   ensure that the Bureau of Field Service representatives conduct and document
       face-to-face interviews for questionable situations involving rep payees;
   •   expand the Universal System Tracking and Reporting Program (USTAR) to
       include the results of monitoring;
   •   ensure that USTAR contains all relevant information on the monitoring process or
       reference where the information is available;
   •   provide additional training to all USTAR users who perform rep payee monitoring;
   •   implement controls to ensure centralized oversight of the rep payee monitoring
       process;
   •   strengthen USTAR procedures to ensure consistency throughout the entire
       Bureau of Field Service;
   •   revise the rep payee monitoring procedures to ensure complete documentation
       of all monitoring activities performed, including any supervisory reviews;
   •   research and implement a cost-effective method to use existing incarceration
       data and/or third party database information to assess the rep payees’ criminal
       histories during monitoring;


                                             ii
   •   update current monitoring procedures to include steps to check rep payees for
       criminal and/or misdemeanor offenses against available databases, and use this
       information to determine the continued suitability of the rep payees;
   •   strengthen controls over the timeliness of rep payee monitoring;
   •   establish procedures for a comprehensive "parent-for-child" rep payee monitoring
       program which ensures that the intent of the regulations for rep payee
       accountability is carried out;
   •   ensure that all rep payee documentation is properly maintained;
   •   provide training to the Bureau of Field Service staff to ensure consistent practices
       for imaging and indexing documentation for rep-payee monitoring activities; and
   •   design controls to correctly identify all rep payees.

Management’s Response

The Office of Programs and the Bureau of Field Service agreed to take corrective action
for 16 of our 20 recommendations. They disagreed with the remaining
4 recommendations. They also expressed concern that this report lacks detail about
the number and type of exceptions found. The full text of agency management’s
response is included in this report as Appendix IV.

RRB-OIG’s Comments on Management’s Response

The OIG maintains that the implementation of all 20 of our recommendations would help
to ensure that the agency is fully achieving the objective of rep payee monitoring, which
is to determine if the annuitants’ rights are being protected.

Our inspection was not designed to quantify all exceptions; it was designed to evaluate
controls. We believe that the report contains sufficient detail regarding the control
weaknesses identified in the RRB’s rep payee monitoring program to support our
conclusions.




                                             iii
                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION
 Background .................................................................................................................. 1

 Inspection Objectives ................................................................................................... 3

 Scope ........................................................................................................................... 3

 Methodology ................................................................................................................. 3

RESULTS OF INSPECTION
 Controls were not Sufficient to Ensure the Protection of Annuitants’ Rights ................ 4
  Recommendations .................................................................................................... 5
  Management’s Response.......................................................................................... 5

 Self-Reporting and the RRB’s Selection Methodology Increased the Risk of Abuse,
 Neglect, or Misuse of Funds......................................................................................... 6
  Recommendations .................................................................................................... 6
  Management’s Response.......................................................................................... 7
  RRB-OIG’s Comments on Management’s Response................................................ 7

 “High-Risk” Rep Payees were not Readily Identifiable ................................................. 8
   Recommendation ...................................................................................................... 8
   Management’s Response.......................................................................................... 9

 Face-to-Face Interviews were Under-Utilized in Rep Payee Monitoring ...................... 9
  Recommendation .................................................................................................... 10
  Management’s Response........................................................................................ 10

 System Reporting Lacked Data for Management Decision Making ........................... 10
  Recommendations .................................................................................................. 11
  Management’s Response........................................................................................ 11
  RRB-OIG’s Comments on Management’s Response.............................................. 12

 Policies and Procedures were Incomplete ................................................................. 13
  Recommendation .................................................................................................... 14
  Management’s Response........................................................................................ 14
  RRB-OIG’s Comments on Management’s Response.............................................. 14




                                                               iv
 RRB did not Check Rep Payees for Criminal and/or Misdemeanor Offenses ............ 14
  Recommendations .................................................................................................. 15
  Management’s Response........................................................................................ 15

 Timeliness of Monitoring Activities Needed Improvement .......................................... 16
   Recommendation .................................................................................................... 17
   Management’s Response........................................................................................ 17
   RRB-OIG’s Comments on Management’s Response.............................................. 17

 “Parent-for-Child” Monitoring did not Require an Accounting of Benefits ................... 17
   Recommendation .................................................................................................... 18
   Management’s Response........................................................................................ 18
   RRB-OIG’s Comments on Management’s Response.............................................. 18

 Rep Payee Documentation was Incomplete............................................................... 19
  Recommendations .................................................................................................. 20
  Management’s Response........................................................................................ 20

 Controls to Ensure Proper Coding of Rep Payees were Insufficient .......................... 20
  Recommendation .................................................................................................... 21
  Management’s Response........................................................................................ 21
  RRB-OIG’s Comments on Management’s Response.............................................. 21

APPENDICES
 Appendix I - Glossary of Terms .................................................................................. 22

 Appendix II - Testing Methodology and Results
  Non-Statistical Sample - Representative Payees .................................................... 23

 Appendix III - Testing Methodology and Results
  Non-Statistical Sample - “High-Risk” Representative Payees ................................. 25

 Appendix IV - Management’s Response .................................................................... 27




                                                          v
                                                 INTRODUCTION

This report presents the results of the Office of Inspector General's (OIG) inspection of
the Railroad Retirement Board's (RRB) representative payee monitoring.

A glossary of terms has been provided in Appendix I.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act of 1974 (RRA) and the Railroad Unemployment Insurance Act (RUIA). These
programs provide income protection during old age and in the event of disability, death,
temporary unemployment, or sickness. The RRB paid approximately $11 billion in
benefits to over 607,000 beneficiaries during fiscal year (FY) 2011.

It is the policy of the RRB that every adult has the right to manage his payments unless
found to be incompetent. The RRA authorizes the RRB to select and pay benefits to
individuals or organizations on behalf of annuitants deemed incapable of managing their
own financial affairs. These authorized individuals or organizations are known as
representative payees (rep payees). Rep payees are charged with managing RRB
benefits for the welfare of the annuitants. 1 Rep payees are classified into three
categories: court appointed (legal guardians), Board appointed, and "parent-for-child." 2
In calendar year (CY) 2010, the RRB paid approximately $232 million in railroad
retirement benefit payments to approximately 18,000 rep payees.

RRB regulations specify that payments are to be expended for the annuitant's benefit
with priority given to meeting current maintenance needs. Records of disbursements
are to be available on request for the current and three prior years. Excess funds
should be conserved or invested on the annuitant's behalf. Funds deposited in an
interest-bearing account must be in a form of an account which clearly shows that the
rep payee holds the funds in trust for the annuitant, and does not have a personal
interest in the funds. Rep payees are to notify the RRB of any changes affecting the
annuitant's entitlement and to periodically account to the agency for the use of benefits.

Policy and Systems, within the RRB's Office of Programs, is administratively
responsible for, and maintains oversight of, the rep payee program. The Bureau of
Field Service is responsible for determinin~ the need for rep payees, selecting the
rep payees, and reviewing the selections. Policy and Systems selects a sample of
rep payees for annual monitoring and the field offices perform the review and monitoring
of the rep payees.

1
  20 CFR §266.
2
  The Board is a term used synonymously with the Railroad Retirement Board or agency.
3
  The Bureau of Field Service (formerly the "Field Service" within the Office of Programs) is comprised of 53 field
offices located throughout the United States.

                                                           1
RRB procedures provide that rep payees are to be monitored to determine if the
annuitants’ rights are being protected. The monitoring program is designed to verify
custody in “parent-for-child” payee situations, and to elicit an accounting of benefits from
all court/Board appointed rep payees.

The Bureau of Field Service employees conduct monitoring for a portion of Board
appointed and court appointed rep payees on a triennial basis. One third of these
rep payees are selected each year based on the last two digits of their claim number.
Rep payees considered “high-risk” are monitored annually. A “high-risk” rep payee is
one who meets one of the following criteria:

 •   has previously used any of the annuitant’s funds for their own expense;
 •   has been convicted of a felony or misdemeanor under the statutes administered by
     the RRB or the Social Security Administration (SSA); or
 •   had a face-to-face interview during a previous monitoring effort.

The RRB began monitoring “parent-for-child” rep payees in 1989. The “parent-for-child”
monitoring is a separate program and performed once every three years. One hundred
percent of the “parent-for-child” rep payee cases are completed at the same time.
Custody verification alone satisfies accountability for “parent-for-child” rep payees.

This review supports one of the goals of the RRB’s strategic plan, which is to safeguard
customers' trust funds through prudent stewardship. This is accomplished by
establishing strong internal control.

Internal control is an integral component of an organization’s management that provides
reasonable assurance concerning the effectiveness and efficiency of operations,
reliability of financial reporting, and compliance with applicable laws and regulations.
Pursuant to the provisions of the Federal Managers’ Financial Integrity Act of 1982, the
U.S. Government Accountability Office (GAO) issued Standards for Internal Control in
the Federal Government. These standards provide the overall framework for
establishing and maintaining internal control and for identifying and addressing major
performance and management challenges and areas at greatest risk of fraud, waste,
abuse, and mismanagement.




                                             2
Inspection Objectives

The objectives of our inspection were to:

     •     determine if the RRB’s monitoring efforts over rep payees ensure that benefits
           paid to rep payees are used for the needs of the annuitants; and
     •     identify opportunities to improve the effectiveness and efficiency of RRB’s
           rep payee monitoring.

Scope

Our scope included internal controls over monitoring and reporting for RRA rep payees
during FYs 2008 to 2010.

Methodology

To accomplish our objectives, we:

 •       evaluated applicable policies and procedures;
 •       identified selected best practices for rep payee monitoring from other Federal
         agencies, such as SSA and the Department of Veterans Affairs (VA);
 •       obtained an understanding of monitoring criteria;
 •       reviewed various program integrity reports to determine volume, and analyzed
         trends relating to rep payee data;
 •       reviewed and compared laws and regulations to agency procedures and
         determined the sufficiency/adequacy of coverage;
 •       evaluated management controls over RRB’s monitoring process;
 •       performed sampling tests of selected procedures and management controls, as
         described in Appendices II and III; and
 •       interviewed RRB staff and management representatives.

We conducted our inspection in accordance with the Council of the Inspectors General
on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation,
January 2011. Those standards require that we plan and perform the inspection to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our inspection objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
inspection objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
January 2011 through September 2011.




                                               3
                               RESULTS OF INSPECTION

Our inspection determined that the RRB’s rep payee monitoring program did not
adequately ensure that benefits paid to rep payees were used for the needs of the
annuitants. The inspection disclosed the following weaknesses that needed to be
strengthened:

   •   Controls were not sufficient to ensure the protection of annuitants’ rights;
   •   Self-reporting and selection methodology increased the risk of abuse, neglect, or
       misuse of funds;
   •   “High-risk” rep payees were not readily identifiable;
   •   Face-to-face interviews were under-utilized in rep payee monitoring;
   •   System reporting lacked data for management decision making;
   •   Policies and procedures were incomplete; and
   •   RRB did not check rep payees for criminal and/or misdemeanor offenses.

We also identified opportunities to improve the effectiveness and efficiency of RRB’s
rep payee monitoring in the following areas:

   •   Timeliness of monitoring activities needed improvement;
   •   “Parent-for-child” monitoring did not require an accounting of benefits;
   •   Documentation for some rep payees was incomplete; and
   •   Controls to ensure proper coding of rep payees were insufficient.

The details of our findings and recommendations for corrective action are discussed
throughout the remainder of this report. The Office of Programs and the Bureau of Field
Service agreed to take corrective action for 16 of our 20 recommendations. The full text
of management’s response is included in this report as Appendix IV.

Controls were not Sufficient to Ensure the Protection of Annuitants’ Rights

The RRB did not have adequate internal control to ensure the protection of annuitants’
rights. During our inspection, we did not find any documentation showing that a
complete risk analysis of the rep payee monitoring program had ever been performed.
In addition, we observed that rep payee monitoring activities were incomplete, not
properly documented, and existing procedures were not being followed.

The RRB’s policies and procedures for rep payee monitoring state that the “RRB is
responsible…for monitoring the payee to determine if the annuitant’s rights are being
protected.” Generally, monitoring programs are designed to verify custody in
“parent-for-child” payee situations and to elicit an accounting of benefits from other
rep payees.

                                             4
RRB officials told us that they considered rep payee monitoring to be a program
integrity function. Therefore, rep payee monitoring controls had been focused on
program integrity activities, which were meant to ensure that the correct amount of
benefits were being paid to the right people, rather than on protecting the best interests
of the annuitant. These program integrity activities focused on payback for the amount
of effort invested versus identifying the risks. In fact, a risk analysis for the rep payee
monitoring program had not been performed, and we found no central location where all
controls related to rep payee monitoring were documented.

As a result, existing controls were not sufficient to ensure that rep payees were properly
managing RRB benefits for the welfare of the annuitants.

Recommendations

We recommend that the Office of Programs and the Bureau of Field Service:

   1. re-communicate the purpose of rep payee monitoring to applicable employees.

We recommend that the Office of Programs:

   2. perform a risk analysis for the rep payee program; and

   3. re-evaluate existing controls and implement additional controls to ensure that the
      rights of the annuitants are protected.

Management’s Response

With regard to recommendation 1, the Office of Programs and the Bureau of Field
Service stated that although they believe that the purpose of representative payee
monitoring is well understood, they will re-communicate the purpose of representative
payee monitoring in connection with the FY 2012 monitoring effort.

In regard to recommendation 2, the Office of Programs agreed to conduct a risk
analysis to identify and assess factors that may adversely impact the effectiveness of
the representative payee program in achieving its purpose.

In regard to recommendation 3, the Office of Programs stated that, based on the results
of the risk analysis, they will identify existing countermeasures and determine whether
additional controls are needed.




                                            5
Self-Reporting and the RRB’s Selection Methodology Increased the Risk of
Abuse, Neglect, or Misuse of Funds

Rep payees’ self-reporting and the RRB’s selection methodology increased the risk of
annuitants’ funds being misspent. The RRB’s rep payee monitoring program relied on
the honor system instead of documented evidence, and used the same selection
methodology to choose which cases were monitored from year to year.

Regulations stipulate that the rep payee is accountable for the use of benefits, must
keep records, provide periodic written reports, and is subject to verification as to how
benefit payments were used. Additionally, Federal standards for internal control require
that all transactions and other significant events be clearly documented and readily
available for examination. 4 More specifically, transactions and significant events need
an audit trail. 5

Although RRB regulations required rep payees to keep records to document how the
benefit payments were used, these records were not requested, reviewed, or verified
during the monitoring process. In addition, the RRB continued to use the same
selection methodology from year to year. This methodology was predictable, minimized
randomness, and did not contain the element of surprise. It appears that the RRB
presumed that the rep payee would always be truthful and forthcoming, and did not see
the need to verify information provided.

The reliance on self-reporting and the RRB’s selection methodology for monitoring
increased the risk that questionable rep payees would not be identified and dealt with
appropriately. As a result, there was increased risk that annuitants’ benefits would be
abused, neglected, or misused, and that problems would not be detected in a timely
manner.

We identified best practices in some other government agencies with similar functions
and monitoring responsibilities, such as SSA and VA. We found that these agencies did
not rely on the honor system as a basis for verifying rep payee disclosures; instead,
they reviewed supporting documentation in support of rep payee financial disclosures.

Recommendations

We recommend that the Bureau of Field Service:

    4. request and review supporting documentation in order to properly analyze
       rep payee disclosures.




4
 “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 15.
5
 GAO/PCIE “Financial Audit Manual,” Section 260, “Identify Risk Factors,” GAO-08-585G, Volume 1, July 2008,
pages 260-9 and 260-10.

                                                       6
We recommend that the Office of Programs:

   5. re-evaluate the selection methodology for determining which cases will be
      monitored in any given year.

Management's Response

In regard to recommendation 4, the Bureau of Field Service disagrees with the finding
and the recommendation. They stated that it is not clear that obtaining and analyzing
supporting documentation would improve the RRB's representative payee monitoring
process. They believe that the RRB's documentation requirement for representative
payees is the same as that of the Social Security Administration. The Bureau of Field
Service maintains that requiring the RRB's nearly 18,000 representative payees to
submit detailed documentation of their expenditures is administratively problematic
because (1) it would create a significant unfunded workload and (2) it is not clear that
analysis of such documentation would disclose misuse of funds.

The Bureau of Field Service believes that in order to implement the recommendation,
they would need to revise the applicable regulation and obtain clearance from the Office
of Management and Budget (OMB) for the routine collection of the recommended
supporting documentation. They state that because they do not have the manpower to
address such a voluminous workload and the value to the program is unclear, it would
be difficult to demonstrate that the proposed information collection would meet the
requirements of the Paperwork Reduction Act which is necessary to secure OMB
clearance.

In regards to recommendation 5, the Office of Programs stated that, in addition to the
cases selected for monitoring through established procedures, they will select additional
representative payees for monitoring each year beginning with the upcoming FY 2012
monitoring effort.

RRB-OIG's Comments on Management's Response

We disagree with the Bureau of Field Service's statements that the recommended
corrective action would create a significant unfunded workload and a need to obtain
clearance from OMB to meet the requirements of the Paperwork Reduction Act.
Periodically requesting and reviewing some backup documentation for rep payees'
expenditures would allow the Bureau of Field Service representatives to satisfy
themselves that the funds were being used to the benefit of the annuitants. It was not
our intenti9n that all backup documentation be requested and maintained for all
rep payees for every year that they are monitored. However, requiring rep payees to
keep records to document how the benefit payments were used, without ever
requesting or reviewing them, completely undermines the intent of the regulations.




                                            7
“High-Risk” Rep Payees were not Readily Identifiable

The manual process used to track and monitor “high-risk” rep payees was inconsistent
and incomplete.

RRB procedures require that rep payees defined and classified as “high-risk” are
subject to annual monitoring. Indicators that a rep payee may be “high-risk” include the
following:

   •   the use of the annuitant's funds for their own expenses;
   •   conviction of a felony;
   •   conviction of a misdemeanor related to statutes administered by the RRB or
       SSA;
   •   had a face-to-face interview during a previous monitoring effort; and
   •   rep payees who charge a fee for services.

We found it difficult to identify and distinguish “high-risk” rep payees who were subject
to annual monitoring, from regular rep payees, who were monitored on a triennial basis,
because there was no coding in the RRB’s on-line systems to identify “high-risk”
rep payees. This, coupled with an overall lack of documentation, often made it difficult
to determine why some rep payees are designated as “high-risk”, or to determine how
the “high-risk” issues were resolved or handled.

“High-risk” rep payees were not readily identifiable in any of the RRB’s available
databases because identification and monitoring were based on a manual process
which lacks data entry verification. The Bureau of Field Service employees performing
monitoring activities were often not aware which rep payees were designated as
“high-risk.”

Since “high-risk” rep payees were not readily identifiable, there was no assurance that
these rep payees were being monitored annually and/or being dealt with appropriately.

Recommendation

We recommend that the Office of Programs:

   6. implement additional controls to improve the process for identifying and
      monitoring “high-risk” rep payees.




                                            8
Management’s Response

In regard to recommendation 6, the Office of Programs agreed with this finding and with
the recommendation. They stated that they have requested programming changes to
add additional field codes to identify beneficiaries with high risk representative payees in
the Checkwriting Master.


Face-to-Face Interviews were Under-Utilized in Rep Payee Monitoring

The Bureau of Field Service representatives did not utilize face-to-face interviews to
address and monitor situations indicating a potential problem with a rep payee.

RRB’s procedures require interviews when an unacceptable response is provided on a
monitoring form, when monitoring forms are not returned in a timely fashion, or when a
report of possible abuse, neglect, or misuse of funds needs to be investigated.
RRB procedures stress the importance of the face-to-face interview of the rep payee,
annuitant, and in some cases the custodian, to help establish the following:

   •   the rep payee’s demonstration of concern, including learning about the
       annuitant’s needs, and the amount of contact with the annuitant, the use of
       benefits, and record keeping;
   •   the annuitant’s awareness of entitlement to benefits and their right to appeal the
       rep payee selection, information regarding large purchases made with the
       annuitants’ benefits, and indications of unmet needs; or
   •   the custodian’s verification of amounts of care and maintenance, other
       emergency contacts, and adequacy of records for annuitant’s share of personal
       funds.

We found limited documentation that face-to-face interviews were being performed to
assist in the rep payee monitoring activity. In all cases, the Bureau of Field Service
representatives used the regular form for rep payee monitoring and did not use the form
for face-to-face interviews. The Bureau of Field Service representatives indicated that
they did not routinely use face-to-face interviews because they believed they were
optional and not required.

Because the “high-risk” cases are at a higher risk of possible abuse, neglect, or misuse
of funds, we expected to see an indication that face-to-face interviews were used during
the monitoring of the “high-risk” rep payees. In fact, we found no documentation in any
rep payee monitoring files that face-to-face interviews were conducted.

By not conducting face-to-face interviews, the agency missed the opportunity to
accurately assess questionable situations involving rep payee cases.




                                             9
Recommendation

We recommend that the Bureau of Field Service:

   7. ensure that the Bureau of Field Service representatives conduct and document
      face-to-face interviews for questionable situations involving rep payees.

Management’s Response

In regard to recommendation 7, the Bureau of Field Service stated that they will issue a
Training Reminder on the need to conduct face-to-face interviews for all High-Risk
representative payees, as well as cases where the current payee has not complied with
the multiple attempts to complete the triennial monitoring on a timely basis. This
reminder will be issued in connection with the upcoming FY 2012 monitoring effort.


System Reporting Lacked Data for Management Decision Making

The Universal System Tracking and Reporting Program (USTAR), used to track
rep payee monitoring results, lacked information that was crucial for management
decision making.

In June 2010, RRB directed a rep payee monitoring procedure change with the use of
USTAR. The procedure states “Universal STAR tracks a case or work item from the
point it is logged into the system to when it is closed out.” USTAR “provides complete
handling and disposition information for all active and closed cases and other work
items that need to be tracked.” All rep payee monitoring cases selected for annual
monitoring are loaded to the USTAR database program for purposes of assigning
cases, reporting individual case results, and tracking field office workloads.

The standards for internal control in the Federal government provide that internal control
techniques are to be effective and efficient in accomplishing their objectives. Also,
sound management practices dictate that a management information system provide
information in a format which can be readily used to evaluate the program for which the
system was created.

During our inspection, we observed that there was no overall summary to show the
results of the triennial rep payee or the “parent-for-child” monitoring. In addition,
rep payee monitoring information was maintained in three separate systems,
(USTAR, Contact Log, and Workdesk) with no one system being all-inclusive.

USTAR did not contain all relevant information related to rep payee monitoring. Often
USTAR remark fields were blank because the Bureau of Field Service representatives
utilized a different system to document actions related to rep payee contacts and/or
monitoring.



                                           10
We also noted erroneous disposition codes for some rep payee monitoring cases in
USTAR. Additionally, not all field offices were utilizing USTAR’s tracking features. For
example, some field offices entered and closed the rep payee monitoring cases on the
same day. Therefore, no aging or status was shown on the summary report.

The use of USTAR was relatively new, and it appeared that the Bureau of Field Service
was still becoming familiar with using the system for rep payee monitoring. Additionally,
there was no centralized oversight, and there was a lack of consistent procedures for
the use of USTAR. Moreover, the emphasis in USTAR appeared to be on tracking the
number of monitoring cases completed, and on the timeliness of completion, rather than
on analyzing the results.

As a result, agency management could not conclude whether or not the monitoring had
achieved its stated purpose of protecting the annuitants’ rights. In addition,
management could not adequately perform oversight duties on the rep payee
monitoring process.

Recommendations

We recommend that the Office of Programs:

     8. expand USTAR to include the results of monitoring;

     9. ensure that USTAR contains all relevant information on the monitoring process
        or reference to where the information is available;

   10. provide additional training to all USTAR users who perform rep payee
       monitoring;

   11. implement controls to ensure centralized oversight of the rep payee monitoring
       process; and

   12. strengthen USTAR procedures to ensure consistency throughout the entire
       Bureau of Field Service.

Management’s Response

In regard to recommendation 8, the Office of Programs stated that the results of the
representative payee monitoring are currently documented in USTAR. They believe
that the system captures the status of the case and outcome through the use of codes.
However, they agreed that the individual case outcomes could be better documented.
They stated that they will revise the required representative payee monitoring
documentation and related procedures to capture the outcome of each case so that it
will be stored in the agency’s imaging system.




                                           11
In regard to recommendation 9, the Office of Programs disagreed with this finding and
with the recommendation. They stated that USTAR is a work management system
which is designed to capture the results of representative payee monitoring at a high
level. The Office of Programs also stated that other systems and methods are used to
document the details of the process; staff are trained on these other systems and are
aware that pertinent information may exist in multiple locations. In this regard,
representative payee monitoring is managed in the same manner as other
benefit-related activities. For example, documentation of personal contacts would be in
the Contact Log System; pending cases and final disposition of completed cases is
coded in the USTAR system, and scans of forms and correspondence are in the
imaging system.

In regard to recommendation 10, the Office of Programs agreed that USTAR users can
benefit from additional training to ensure that the system is used effectively. They will
conduct this training in connection with the upcoming FY 2012 monitoring effort.

In regard to recommendation 11, the Office of Programs stated that they believe that
USTAR provides the top level information needed for effective management and
accountability. The system captures timeliness and the results of monitoring by
standardized code, as well as providing for customized remarks. They also re-stated
that they do agree that individual case outcomes could be better documented. They will
revise the required representative payee monitoring documentation and related
procedures to capture the outcome of each case.

In regard to recommendation 12, the Office of Programs agreed that reminding field
service management and staff of procedures for using USTAR to manage
representative payee monitoring will benefit the program.

RRB-OIG’s Comments on Management’s Response

Regarding the Office of Program’s response to recommendation 9, we maintain that
USTAR has a “remarks” field where the Bureau of Field Service representatives can
make notes regarding issues or contacts for each rep payee monitoring case. An
absence of any remarks in that field might mislead a person to believe that there were
no issues or contacts related to the case when, in fact, there were, but were
documented somewhere else. During the course of the audit, Bureau of Field Service
representatives agreed that it would be a good idea to put a reference in USTAR’s
“remarks” field as to where other information related to rep payee monitoring could be
found. OIG believes that adding a reference in USTAR’s “remarks” field would help to
close the loop in the rep payee documentation.




                                           12
Policies and Procedures were Incomplete

Policies and procedures for rep payee monitoring were incomplete to ensure the
continuity of operations in accordance with management’s directives. These
procedures did not include detailed instructions for documenting the Bureau of Field
Service representatives’ analysis/review or for documenting the supervisory review of
the rep payee monitoring process.

RRB Field Office Manual (FOM1) procedures provide that the RRB is responsible for
monitoring rep payees to determine if the annuitant’s rights are being protected.

Control activities help to ensure that management’s directives are carried out. 6 Internal
controls and all transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination. 7
These controls include policies and procedures to carry out organizational objectives,
such as planning, productivity, and economy, efficiency, and effectiveness objectives.
Management uses these controls to provide reasonable assurance that the entity
(1) achieves its mission, (2) maintains quality standards, and (3) does what
management directs it to do. 8

During our inspection, we observed that the monitoring activities performed by contact
representatives and supervisors were not always documented. Generally, there were
no annotations that the contact representative had reviewed, verified, analyzed, and/or
accepted the rep payees’ responses on the monitoring forms. Contact representatives
did not routinely sign, date, or annotate the disposition on applicable forms. Also, there
were no annotations that the amount of railroad retirement benefits, reported by
rep payees on the monitoring forms, had been compared and verified to the RRB’s
payment systems.

RRB staff told us that the RRB’s payment systems were checked. However, they felt
that there was no need to document data readily available in the system. In addition,
although we were told that supervisors reviewed the monitoring forms, there was no
documented evidence of this review. RRB management told us that their procedures
did not require a supervisory review. Therefore, they took exception that we noted no
documentation of the supervisory review.

Without formal, detailed, and comprehensive policies and procedures, there was no
assurance that the various field offices would consistently comply and carry out
management’s directives, or that they would meet their monitoring objective.




6
  “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 11.
7
  “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 15.
8
  GAO/PCIE “Financial Audit Manual,” Section 260, “Identify Risk Factors,” GAO-08-585G, Volume 1, July 2008,
page 260-3.

                                                       13
Recommendation

We recommend that the Office of Programs:

   13. revise the rep payee monitoring procedures to ensure complete documentation
       of all monitoring activities performed, including any supervisory reviews.

Management’s Response

In regard to recommendation 13, the Office of Programs re-stated that individual case
outcomes could be better documented. They will revise the required representative
payee monitoring documentation and related procedures to capture the outcome of
each case so that it will be stored in the agency’s imaging system.

RRB-OIG’s Comments on Management’s Response

We do not believe that the proposed corrective action meets the intent of our
recommendation. Simply documenting individual case outcomes in the imaging system
does not provide for a proper audit trail as to what the Bureau of Field Services
representatives actually reviewed or analyzed in conducting the monitoring. The
absence of any tick marks, initials, notes of analysis, etc. provides no proof that
anything was done with the monitoring forms beyond receiving them and scanning them
into the agency’s imaging system.


RRB did not Check Rep Payees for Criminal and/or Misdemeanor Offenses

The Bureau of Field Service representatives performing monitoring activities relied on
rep payees to self-report if they had been convicted of a criminal and/or misdemeanor
offense, and did not verify the information provided to them.

RRB procedures require rep payees to self-report, on the monitoring forms, if they have
been convicted of a felony or crime under the statutes administered by the RRB or SSA.
RRB rep payee monitoring procedures instruct the Bureau of Field Service
representatives to make sure that the rep payee has responded to the question on the
form, and to develop the case for another (alternative) rep payee if the response to the
question is “yes.”

During our inspection, we found one case where the response to the criminal /
misdemeanor offense question was “yes” on the rep payee’s application. In this case,
the Bureau of Field Service representative properly attempted to select another
rep payee according to procedures. Ultimately, the rep payee was retained as a
“high-risk” rep payee because no other alternatives were available for this annuitant.




                                           14
However, in all other cases, we found no documentation to show that the agency had
tried to verify whether or not the rep payees had been truthful regarding criminal and
misdemeanor offenses, even though there were existing law enforcement databases
that could have been checked. Monitoring procedures did not include steps to verify the
yes or no responses.

While RRB procedures do not specifically require the Bureau of Field Service
representatives to check available databases, sound management practices dictate that
available databases be checked for criminal or misdemeanor offenses.

It appears that the agency did not check rep payee for criminal and/or misdemeanor
offenses because RRB representatives incorrectly assumed that the rep payees would
always be truthful. In addition, the agency placed emphasis on paying benefits in the
right amount to the right annuitants on a timely basis, rather than on ensuring that the
annuitants’ rights were protected. Lastly, the Bureau of Field Service management told
us that the Bureau of Field Service representatives did not have access to any
databases which contained criminal history, and that those types of databases charge
fees.

Self-reporting of criminal history is not reliable, and the lack of ongoing screening of
rep payees could result in the increased risk of the continued use of rep payees with a
criminal history and the misuse of annuitants’ funds.

Recommendations

We recommend that the Office of Programs:

   14. research and implement a cost-effective method to use existing incarceration
       data and/or third party database information to assess the rep payees’ criminal
       histories during monitoring; and
   15. update current monitoring procedures to include steps to check rep payees for
       criminal and/or misdemeanor offenses against available databases, and use
       this information to determine the continued suitability of the rep payees.

Management’s Response

With regard to recommendation 14, the Office of Programs agreed to research the
availability of a cost-effective method to include identification of criminal history in the
representative payee monitoring program. They stated that the Bureau of Public Debt’s
“Do Not Pay Portal” may eventually provide such an opportunity.

With regard to recommendation 15, the Office of Programs agreed to research the
availability of a cost-effective method to include identification of criminal history in the
representative payee monitoring program. They re-stated that the Bureau of Public
Debt’s “Do Not Pay Portal” may eventually provide such an opportunity.


                                              15
Timeliness of Monitoring Activities Needed Improvement

The timeliness of rep payee monitoring could be improved. During our inspection, we
identified several instances of rep payee monitoring which did not comply with the
agency’s established deadlines for monitoring.

The RRB had established an overall timeliness parameter of 120 days for the
completion of the rep payee monitoring program for each year. At the onset of each
rep payee monitoring activity for the year, applicable guidance was updated and
deadlines were established.

RRB procedures specifically provide that monitoring forms should be returned by the
rep payees within 30 days. At 30 days, a second request is to be sent out and tracking
for an additional 15 days should be established. At this point, phone contact to
schedule an interview is required. If contact is unsuccessful, a form letter is issued and
a deadline of 15 days is established, after which the annuity is suspended if the
rep payee refuses to cooperate in scheduling an interview or if no response is received.

During our inspection, we identified several instances of rep payee monitoring which did
not comply with the agency’s established deadlines. The details of our findings include
the following:

   •   The non-statistical samples of rep payees, including “high-risk” rep payees,
       disclosed cases in which the monitoring was not completed by the overall
       established deadline, and cases where the internal tracking timeframe
       established for the return and follow-up of the monitoring form, including
       suspension of benefits, was not completed as prescribed in RRB’s procedures.
   •   In a few instances, the Bureau of Field Service personnel at some field offices
       established individual deadlines in USTAR that were beyond the final deadlines
       established for the entire monitoring program. This occurred during the 2010
       rep payee monitoring effort, and the 2010 “parent-for-child” monitoring that was
       delayed until 2011.
   •   “Parent-for-child” rep payees, which should have been monitored in CY 2010
       according to the agency’s once-every-three-year schedule, were not monitored
       until CY 2011. Although RRB management stated that it was a conscious
       management decision to delay the “parent for child” monitoring until CY 2011, we
       found no documentation to show this management decision.

In addition, a review of the supporting statistics for the agency’s Program Integrity
Reports disclosed late monitoring in FYs 2008, 2009, and 2010.

Untimely monitoring was caused by the lack of comprehensive controls. In addition, the
tracking and/or aging of rep payee cases by field offices lacked consistency.



                                            16
Failure to meet established deadlines can result in improper suspension and/or delayed
payments to annuitants, which could lead to the annuitants having unmet needs.

Recommendation

We recommend that the Office of Programs:

   16. strengthen controls over the timeliness of rep payee monitoring.

Management’s Response

In regard to recommendation 16, the Office of Programs stated that the USTAR work
management system includes features that allow establishment of due dates. They
also stated that the year audited, FY 2010, was the first year that USTAR had been
used for representative payee monitoring and these timeline features had not yet been
fully implemented for managing the monitoring effort. They stated that for the FY 2012
monitoring program, they will assign each case in USTAR and establish target dates for
monitoring cases.

The Office of Programs disagreed with statements in the report that indicate
parent-for-child monitoring had been delayed through lack of controls. They stated that
Management made a decision to delay parent-for-child monitoring so that it could be
controlled through USTAR.

RRB-OIG’s Comments on Management’s Response

As we previously stated, although RRB management stated that it was a conscious
management decision to delay the “parent-for-child” monitoring until CY 2011, we found
no documentation to show this management decision.


“Parent-for-Child” Monitoring did not Require an Accounting of Benefits

“Parent-for child” rep payee monitoring efforts did not ensure the protection of
annuitants’ rights. The monitoring of "parent-for-child" rep payees was designed to
verify the custody arrangement of the annuitant only, and did not require this type of
rep payee to account for the use of railroad retirement benefits.

RRB regulations stipulate that a representative payee is accountable for the use of
benefits, must keep records on the use of benefit payments, and make periodic written
reports. There is no differentiation between the types of rep payees in these
regulations.




                                            17
Our inspection noted that RRB procedures for rep payee monitoring differentiated
between the types of rep payees. The court and Board appointed rep payee monitoring
programs were designed to elicit an accounting of benefits received, identification of any
savings, disclosure of any felony or misdemeanor convictions, changes in custody, and
living arrangements. The “parent-for-child” rep payees were only required to verify
custody; this verification alone satisfied accountability for this type of rep payee.

RRB management told us that they considered the “parent-for child” rep payees a
low-risk area.

The limited monitoring of "parent-for-child" rep payees could result in the current needs
of the annuitant not being met and misuse of the annuitants’ benefits.

Recommendation

We recommend that the Office of Programs:

   17. establish procedures for a comprehensive "parent-for-child" rep payee
       monitoring program which ensures that the intent of the regulations for
       rep payee accountability is carried out.

Management’s Response

In regard to recommendation 17, the Office of Programs disagreed with this finding and
with the recommendation. They stated that they continue to believe that their current
program procedures are appropriate to the circumstances and that the funds of children
in parental custody are at lower risk of misuse. They stated that, for this reason, they
limit the initial monitoring inquiry in these cases to verification of custody.

RRB-OIG’s Comments on Management’s Response

As previously stated, RRB regulations stipulate that a representative payee is
accountable for the use of benefits, must keep records on the use of benefit payments,
and make periodic written reports. There is no differentiation between the types of
rep payees in these regulations. Therefore, we believe that the intent of the regulations
was for all rep payees to account for the use of the annuitants’ benefits, regardless of
their relationship to the annuitant.




                                           18
Rep Payee Documentation was Incomplete

Documentation for rep payees was not always maintained in the automated system.
Rep payee documentation was not always imaged (scanned) and indexed as required
by RRB procedures. Additionally, some documents that were not maintained in the
automated systems were available in hard copy form from the field offices, while others
had been purged, shredded, or were otherwise not available.

RRB’s procedures provide that all rep payee documents be imaged for each payee
selected, “except minor children and students with parental representative payees.”
These procedures state “[i]mage all representative payee documents for all incompetent
disabled children, both those living with and not living with the widow(er), and for minor
children and students with non-parental (court and Board appointed) representative
payees.” Field offices are required to image and index all forms separately. The
imaged documents should include the original application form, material pertinent to the
payee selection, copies of notices released to the annuitants and rep payees, as well as
monitoring forms.

GAO’s Standards for Internal Control in the Federal Government have established
Federal standards for internal controls and provide that “[a]ll documentation and records
should be properly managed and maintained.” 9

During our inspection, we found diverse practices throughout the various field offices as
to how the results of rep payee monitoring were documented and how the rep payee
records were retained.

RRB representatives cited limited resources, staff shortages in smaller field offices, and
other priority workload as reasons for noncompliance. Additionally, the Office of
Programs maintained they have not issued a mandate to image (scan) all rep payee
documents to Workdesk.

When policies, procedures, and practices are not documented, or are unavailable,
outdated, or inconsistent, accounting controls may be bypassed and control
weaknesses may go undetected. A lack of documentation also undermines an
organization’s ability to ensure continuity of operations in the event of staff changes.




9
    “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 15.

                                                         19
Recommendations

We recommend that the Bureau of Field Service:

       18. ensure that all rep payee documentation is properly maintained; and

       19. provide training to the Bureau of Field Service staff to ensure consistent
           practices for imaging and indexing documentation for rep-payee monitoring
           activities.

Management’s Response

In regard to recommendation 18, the Bureau of Field Service stated that, on
April 16, 2012, an email was released to all Network Managers reminding them that
forms required for representative payee appointments, as well as paper documentation
related to representative payee monitoring, should be scanned into the RRB’s imaging
system, including those on hand from prior monitoring periods.

In regard to recommendation 19, the Bureau of Field Service stated that, on
April 16, 2012, an email was released to all Network Managers reminding them that
forms required for representative payee appointments, as well as paper documentation
related to representative payee monitoring, should be scanned into the RRB’s imaging
system, including those on hand from prior monitoring periods.


Controls to Ensure Proper Coding of Rep Payees were Insufficient

The RRB had no controls to verify that annuitants, with or without managed accounts,
were coded accurately in the agency’s automated systems.

Rep payee codes had been established in the automated systems to identify court
appointed, Board appointed, and “parent-for-child” rep payees as numbers 1, 2, and 3,
respectively.

GAO's Standards for Internal Control in the Federal Government provides "[i]nternal
control activities help ensure that management's directives are carried out." "Control
activities are the policies, procedures, techniques, and mechanisms that enforce
management’s directives...[t]hey help ensure that actions are taken to address risks.
Control activities are an integral part of an entity’s planning, implementing, reviewing,
and accountability for stewardship of government resources and achieving effective
results." 10

Although RRB representatives stated that the cases identified were coded as rep payee
cases in error, we found no controls in place to verify that the rep payee coding was
correct, or to detect such errors.
10
     “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99), page 11.

                                                         20
As a result, the code did not always match the annuitant’s actual status, and monitoring
efforts may not have been capturing the entire rep payee population.

Recommendation

We recommend that the Office of Programs:

   20. design controls to correctly identify all rep payees.

Management’s Response

In regard to recommendation 20, the Office of Programs disagreed with this
recommendation. They stated that the recommendation is not supported by the cases
identified during the inspection which, as stated in the report, were coded in error as
having representative payees when none has been appointed. They also stated that
this was human error and has no impact on the program. However, they stated that
they will request a reminder concerning the proper coding of representative payees in
the training reminders that will be released to the Bureau of Field Service staff as a
result of this inspection. (See the response to recommendations 7 and 12.)


RRB-OIG’s Comments on Management’s Response

We disagree with management’s statement that the coding error has no impact on the
program. Coding errors, whether they are an absence of a rep payee code, or an
incorrect code, could result in a rep payee never being monitored, or being incorrectly
selected for monitoring, when no such monitoring is necessary. The absence of
controls to prevent or detect coding errors can also result in an incorrect population of
rep payees to select from for monitoring.




                                            21
                                                               Appendix I


                    APPENDICES

               Glossary of Terms

Contact Log   A web-based application for recording, maintaining, and
              viewing customer contact activities on RRA and RUIA
              records.

Custodian     The person that the annuitant is living with, who may or
              may not be the rep payee.

Image         An image is always part of an electronic document. A
              document scanner converts paper sides to electronic
              images.

Index         The various pieces of identifying information that are part
              of each document is called the document index. The
              index always includes a social security number and form
              type. This information makes it easy for the document to
              be retrieved at a later date.

USTAR         The Universal System Tracking and Reporting Program
              (USTAR) is the electronic system the RRB uses for the
              purposes of assigning rep payee monitoring cases,
              reporting individual case results, and tracking field office
              workloads. The RRB began using USTAR for rep payee
              monitoring in 2010.

Workdesk      The automated system used to view information that has
              been permanently stored in the imaging system, such as
              award forms and letters.




                          22
                                                                                                      Appendix II


                               TESTING METHODOLOGY AND RESULTS

                           Non-Statistical Sample - Representative Payees

Audit Objective

We tested a randomly selected non-statistical sample of the RRB’s rep payee
monitoring cases to determine if the rep payee monitoring controls were properly
designed and operating as intended, if RRB’s monitoring efforts and actual practices
were in compliance with RRB’s written procedures and identified management controls,
and if existing rep payee procedures/controls were adequate to ensure that
questionable rep payees were identified and dealt with appropriately.

Scope

Using the RRB’s Master Benefit File, we identified a population of 18,109 rep payees
with a total estimated annualized Railroad Retirement benefit payment amount of
$232,450,257. 11 This universe included court appointed, Board appointed, and “parent-
for-child” rep payees. We then randomly selected a non-statistical sample of 50
rep payee claims monitored in FYs 2008 - 2010. 12

Although 50 cases were initially selected for sample testing, 2 of the rep payee cases
were incorrectly coded as rep payee claims. These annuitants did not have rep payees
and were incorrectly coded; therefore, only 48 of the sample cases were eligible for
testing.

Review Methodology

For each of the 48 cases, we:

       •   obtained and reviewed supporting documentation from USTAR, Workdesk, and
           Contact Log;
       •   interviewed responsible management and staff;
       •   obtained and reviewed any existing policies, procedures, and practices; and
       •   developed and executed a checklist to test and evaluate the controls.



11
     A breakdown of rep payees is as follows:
       •   Court appointed rep payees totaling 1,832 rep payees with an estimated total annualized RR benefit
           payment amount of $24,001,362.84;
       •   Board appointed rep payees totaling 13,605 rep payees with an estimated total annualized RR benefit
           payment amount of $171,882,288.00; and
       •   Parent-for-Child rep payees totaling 2,672 rep payees with an estimated total annualized RR benefit
           payment amount of $36,566,606.28.
12
     The rep payees tested in this sample exclude those identified as “high-risk” rep payees.

                                                            23
                                                                                     Appendix II


Results

We found significant exceptions in 18 of 48 (38%) cases reviewed.

The results of our case review and issues identified are outlined in the table below.




                                                                                            Exceptions
                                                                               Exceptions
                                                                      Tested


                                                                                 Non-
                   Compliance with Procedures



Monitoring

   Monitoring was considered adequate if the rep payee was
   monitored at least once during the triennial period.                  48         38         10

                                                             Total       48         38         10

Face-to-Face Interviews/Contacts

   Face-to-face interviews and contacts were considered
   completed, as required, if they were documented on
   monitoring forms or in RRB systems.                                   48         40               8

                                                             Total       48         40               8

                                                     Grand Total         48         30         18
Summary / Reconciliation

   Total cases with significant exceptions.                              48                    18
   Total cases with minor/no exceptions.                                 48         30
                                                     Grand Total         48         30         18

Audit Conclusion

RRB’s monitoring of rep payees for the sample was not in compliance with their
procedures, and controls were not designed or operating as intended. Rep payee
monitoring efforts and actual practices for the sample were not in compliance with
RRB’s policies and written procedures. As a result, existing monitoring
procedures/controls were not adequate to ensure that questionable rep payees were
identified and dealt with appropriately.




                                              24
                                                                                Appendix III



                      TESTING METHODOLOGY AND RESULTS

            Non-Statistical Sample - “High-Risk” Representative Payees

Audit Objective

We tested a randomly selected non-statistical sample of the RRB’s “high-risk” rep payee
monitoring cases to determine if the controls for monitoring “high-risk” rep payees were
properly designed and operating as intended, if RRB’s monitoring efforts and actual
practices for “high-risk rep payees were in compliance with RRB’s written procedures
and identified management controls, and if existing “high-risk” rep payee
procedures/controls were adequate to ensure that questionable rep payees were
identified and dealt with appropriately.

Scope

Using the RRB’s list of “high-risk” rep payees, we identified a population of 50 unique
“high-risk” rep payees. We then randomly selected a non-statistical sample of 10
“high-risk” rep payee claims monitored in FYs 2008-2010.

Review Methodology

For each of the ten selected “high-risk” rep payee monitoring cases, we:

   •    obtained and reviewed supporting documentation from USTAR, Workdesk, and
        Contact Log;
   •    interviewed responsible management and staff;
   •    obtained and reviewed any existing policies, procedures, and practices; and
   •    developed and executed a checklist to test and evaluate the controls.




                                           25
                                                                                    Appendix III


Results

We found significant exceptions in 7 of 10 (70%) “high-risk” rep payee monitoring cases
reviewed.

The results of our case review and issues identified are outlined in the table below.




                                                                                            Exceptions
                                                                               Exceptions
                                                                      Tested


                                                                                 Non-
                   Compliance with Procedures




Annual Monitoring

   Monitoring was considered adequate if the “high-risk”
   rep payee was monitored annually, as required, during the
   three-year period reviewed.                                           10           6              4

                                                             Total       10           6              4

Face-to-Face Interviews

   Face-to face interviews were considered completed, as
   required, if they were documented on monitoring forms or in
   RRB systems.                                                          10           7              3

                                                             Total       10           7              3

                                                     Grand Total         10           3              7
Summary / Reconciliation

   Total cases with significant exceptions.                              10                          7
   Total cases with minor/no exceptions.                                 10           3
                                                     Grand Total         10           3              7

Audit Conclusion

RRB’s monitoring of the “high-risk” rep payees in the sample was not in compliance with
their procedures and controls were not designed or operating as intended. In addition,
we concluded that RRB’s “high-risk” rep payee monitoring efforts and actual practices
for the sample were not in compliance with RRB’s policies and written procedures. As a
result, existing monitoring procedures/controls were not adequate to ensure that
questionable rep payees were identified and dealt with appropriately.


                                              26
                                                                              Appendix IV



                                                                               FORM G·115f (1-92)
                      UNITED STATES
                      GOVERNMENT                              RAILROAD RETIREMENT BOARD
                                                                      July 11, 2012
                      MEMORANDUM


TO:               Diana Kruel
                  Assistant Inspector General for Audit

FROM:             Ronald Russo
                  Director of Policy and Systems

THROUGH:



                  Martha Barringer
                  Director of Field Service

SUBJECT:          Draft Report - Inspection of the Representative Payee Monitoring
                  Program                                     ·

The Office of Programs and the Bureau of Field Service are committed to making the
representative payee monitoring program as effective as possible. The representative
payee monitoring program seeks to protect the rights of annuitants by identifying and
deterring misuse of funds; that purpose is well understood by all concerned. The RRB's
methodology is consistent with other Federal programs that elicit information through
self-reporting forms and review of detailed supporting documentation on an exception
basis. We continue to seek opportunities to strengthen program management. For
example, during FY 2010 we introduced the use of the USTAR workload management
system to control representative payee referrals to Field Service personnel to
strengthen oversight and accountability.

We agree that the program could be improved and plan to implement many of the
inspection recommendations. However, we are concerned that the report lacks detail
about the number and type of exceptions and may mislead readers concerning the
extent and potential impact of weaknesses.


Recommendation    We recommend that th~ Office of Programs and Bureau of Field Service re-
1                 communicate the purpose of rep payee monitoring to applicable employees.




                                              27
                                                                                    Appendix IV
Draft Report - Inspection of Representative Payee
Monitoring, continued


Response          Although we believe that the purpose of representative payee monitoring is
                  well understood, we will re-communicate the purpose of representative
                  payee monitoring by September 30, 2012 in connection with the upcoming
                  F.Y 2012 monitoring effort.


Recommendation    We recommend that the Office of Programs perform a risk analysis for the
2                 rep payee program.



Response          We agree to conduct a risk analysis to identify and assess factors that may
                  adversely impact the effectiveness of the representative payee program in
                  achieving its purpose. We will complete the analysis by March 31, 2013.



Recommendation   We recommend that the Office of Programs re-evaluate existing controls and
3                implement additional controls to ensure that the rights of the annuitants are
                 protected.


Response           Based on the results of the risk analysis (see recommendation #2) we will
                 · identify existing countermeasures and determine whether additional controls
                   are needed.
                                                                                       ...'


Recommendation We recommend that the Bureau of Field Service request and review
4              supporting documentation in order to properly analyze rep payee
               disclosures.


Response         We disagree. It is not clear that obtaining and analyzing supporting
                 documentation would improve the RRB's representative payee monitoring
                 process. The RRB's documentation requirement for representative payees
                 is the same as that of the Social Security Administration. Requiring that
                 the RRB's nearly 18,000 representative payees submit detailed
                 documentation of their expenditures is administratively problematic
                 because (1) it would create a significant unfunded workload and (2) it is not
                 clear that analysis of such documentation would disclose misuse of funds.

                 In order to implement the recommendation, we would need to revise the
                 applicable regulation and obtain clearance from the Office of Management
                 and Budget (OMB) for the routine collection of the recommended
                 supporting documentation. Because we do not have the manpower to
                 address such a voluminous workl.oad and the value to the program is
                 unclear, it would be difficult to demonstrate that the proposed information


                                               28
                                                                                    Appendix IV
Draft Report - Inspection of Representative Payee
Monitoring, continued


                 collection would meet the requirements of the Paperwork Reduction Act
                 which is necessary to secure OMB clearance.


Recommendation   We recommend that the Office of Programs re-evaluate the selection
5                methodology for determining which cases will be monitored in any given
                 year.


Response         In addition to the cases selected for monitoring through established
                 procedures, we will select additional representative payees for monitoring
                 each year beginning with the upcoming FY 2012 monitoring effort
                 scheduled for release by September 30, 2012.


Recommendation   We recommend that the Office of Programs implement additional controls
6                to improve the process for identifying and monitoring "high-risk"
                 rep payees.


Response         We agree. We have requested programming changes to add additional
                 field codes to identify beneficiaries with high risk representative payees in
                 the Checkwriting Master. A change request for this system modification
                 was submitted to the Bureau of Information Services on April9, 2012
                 (PAS-04-050, Change #5). We expect system changes to be implemented
                 by September 30, 2014.                                                  !,




Recommendation   We recommend that the Office .of Programs and Bureau of Field Service
7                ensure that [t]he Field Service representatives conduct and document face-
                 to-face interviews for questionable situations involving rep payees.


Response         The Bureau of Field Service will issue a Training Reminder on the need to
                 conduct face-to-face interviews for all High-Risk representative payees, as
                 well as cases where the current payee has not complied with multiple
                 attempts to complete the triennial monitoring on a timely basis. This
                 reminder will be issued by September 30, 2012 in connection with the
                 upcoming FY 2012 monitoring effort.


Recommendation   We recommend that the Office of Programs expand USTAR to include the
8                results of monitoring.




                                             29
                                                                                  Appendix IV
Draft Report- Inspection of Representative Payee
Monitoring, continued


Response         The results of the representative payee monitoring are currently
                 documented in USTAR. The system captures the status of the case and
                 the outcome through the use of codes. However, we agree that individual
                 case outcomes could be better documented. We will revise the required
                 representative payee monitoring documentation and related procedures to
                 capture the outcome of each case so that it will be stored in the agency's
                 imaging system. We expect to implement a revised process by
                 09/30/2012.


Recommendation   We recommend that the Office of Programs ensure that USTAR contains
9                all relevant information on the monitoring process or reference where the ·
                 information is available.


Response         We disagree. USTAR is a work management system which is designed to
                 capture the results of representative payee monitoring at a high level.
                 Other systems and methods are used to document the details of the
                 process; staff are trained on these other systems and aware that pertinent
                 information may exist in multiple locations. In this regard, representative
                 payee monitoring is managed in the same manner as other benefit-related
                 activities. For example, documentation of personal contacts would be in
                 the Contact Log system; pending cases and final disposition of completed
                 cases is coded in the USTAR system, and scans of forms and
                 correspondence are in the imaging system.


Recommendation   We recommend that the Office of Programs provide additional training to all
10               USTAR users who perform rep payee monitoring.


Response         We agree that USTAR users can benefit from additional training to ensure
                 that the system is used effectively. We will conduct this training by
                 September 30, 2012 in connection with the upcoming FY 2012 monitoring
                 effort.


Recommendation   We recommend that the Office of Programs implement controls to ensure
11               centralized oversight of the rep payee monitoring process.




                                          30
                                                                                    Appendix IV
Draft Report - Inspection of Representative Payee
Monitoring, continued


Response          We believe that USTAR provides the top level information needed for
                  effective management and accountability. The system captures timeliness
                  and the results of monitoring by standardized code, as well as providing for
                  customized remarks. As previously stated (see our response to #8) we do
                  agree that individual case outcomes could be better documented. We will
                  revise the required representative payee monitoring documentation and
                  related procedures to capture the outcome of each case. We expect to
                  implement a revised process by 09/30/2012.


Recommendation    We recommend that the Office of Programs strengthen USTAR procedures
12                to ensure consistency throughout the entire Bureau of Field Service.


Response         We agree that reminding field service management and staff of procedures
                 for using USTAR to manage representative payee monitoring will benefit the
                 program. The Bureau of Field Service will issue a training reminder by
                 September 30, 2012.


Recommendation   We recommend that the Office of Programs revise the rep payee
13               monitoring procedures to ensure complete documentation of all monitoring
                 activities performed, including any supervisory reviews.


Response         As previously stated (see our response to #8), we agree that individual, ease
                 outcomes could be better documented. We will revise the required
                 representative payee monitoring documentation and related procedures to
                 capture the outcome of each case so that it will be stored in the agency's
                 imaging system. We expect to implement a revised process by
                 September 30, 2012.


Recommendation   We recommend that the Office of Programs research and implement a
14               cost-effective method to use existing incarceration data and/or third party
                 database information to assess the rep payees' criminal histories during
                 monitoring.


Response         We agree to research the availability of a cost-effective method to include
                 identification of criminal history in the representative payee monitoring
                 program. The Bureau of Public Debt's "Do Not Pay Portal" may eventually
                 provide such an opportunity. We will review the actions necessary to
                 complete this research and establish a target date by October 31, 2012.




                                             31
                                                                                       Appendix IV
  Draft Report- Inspection of Representative Payee
  Monitoring, continued


  Recommendation   We recommend that the Office of Programs update current monitoring
 '15               procedures to include steps to check rep payees for criminal and/or
                   misdemeanor offenses against available databases, and use this
                   information to determine the continued suitability of the rep payees.


  Response         We agree to research the availability of a cost-effective method to include
                   identification of criminal history in the representative payee monitoring
                   program. The Bureau of Public Debt's "Do Not Pay Portal" may eventually
                   provide such an opportunity. We will review the actions necessary to
                   complete this research and establish a target date by October 31, 2012.


  Recommendation   We recommend that the Office of Programs strengthen controls over the
  16               timeliness of rep payee monitoring.


· Response         The USTAR work management system includes features that allow
                   establishment of due dates. The year audited, FY 2010, was the first year
                   that USTAR had been used for representative payee monitoring and these
                   timeliness features had not yet been fully implemented for managing the
                   monitoring effort. For the FY 2012 monitoring program, we will assign each
                   case in USTAR and establish target dates for monitoring cases which will
                   be substantially complete by December 31, 2012.

                   We disagree with statements in the report that indicate parent-for-chil9'
                   monitoring had been delayed through Jack of controls. Management made
                   a decision to delay parent-for-child monitoring so that it could be controlled
                   through USTAR.


  Recommendation   We recommend that the Office of Programs establish procedures for a
  17               comprehensive "parent-for-child" rep payee monitoring program which
                   ensures that the intent of the regulations for rep payee accountability is
                   carried out.


  Response         We disagree. We continue to believe that our current program procedures
                   are appropriate to the circumstances and that the funds of children in
                   parental custody are at lower risk of misuse. For this reason, we limit the
                   initial monitoring inquiry in these cases to verification of custody.


  Recommendation   We recommend that the Bureau of Field Service ensure that all rep payee
  18               documentation is properly maintained.




                                               32
                                                                                     Appendix IV
Draft Report- Inspection of Representative Payee
Monitoring, continued


Response            On April 16, 2012, an email was released to all Network Managers
                    reminding them that forms required for representative payee appointments,
                    as well as paper documentation relating to representative payee monitoring.
                    should be scanned into the RRB's imaging system, including those on
                    hand from prior monitoring periods. We have established a target date of
                    December 31, 2012 for the imaging of all current paper-based
                    representative payee files in Field Offices.


Recommendation      We recommend that the Bureau of Field Service provide training to [t]he
19                  Bureau of Field Service staff to ensure consistent practices for imaging and
                    indexing documentation of rep-payee monitoring.


Response           Implemented. On_April16, 2012, an email was released to all Network
                   Managers reminding them that forms required for representative payee
                   appointments, as well as paper documentation relating to representative
                   payee monitoring should be scanned into the RRB's imaging system,
                   including those on hand from prior monitoring periods.


Recommendation     We recommend that the Office of Programs design controls to correctly
20                 identify all rep payees.


Response           We disagree. The recommendation is not supported by the cases
                   identified during the inspection which, as stated in the report, were coded in .
                   error as having representative payees when none had been appointed.
                   This was human error and has no impact on the program. However, we
                   will request that a reminder concerning the proper coding of representative
                   payees in the training reminders that will be released to Bureau of the Field
                   Service staff as a result of this inspection (see the response to
                   recommendations #7 and #12)



Thank you for the opportunity to comment on this report.



cc:            Director of Program Evaluation and Management Services




                                               33
